            U.S. Department of Energy
            Office of Inspector General
            Office of Audits and Inspections




Special Report
Inquiry into the De-Inventory of
Special Nuclear Material at
Lawrence Livermore National
Laboratory




OAS-L-12-11                   September 2012
                                  Department of Energy
                                    Washington, DC 20585


                                       September 21, 2012

MEMORANDUM FOR THE MANAGER, LIVERMORE SITE OFFICE



FROM:                     David Sedillo
                          Director, Western Audits Division
                          Office of Inspector General

SUBJECT:                  INFORMATION: Special Report on "Inquiry into the De-Inventory of
                          Special Nuclear Material at Lawrence Livermore National Laboratory"

BACKGROUND

The Lawrence Livermore National Laboratory (Livermore) is a Department of Energy facility
managed and operated by Lawrence Livermore National Security, LLC (LLNS), for the
Department's National Nuclear Security Administration (NNSA). Livermore's mission is to
ensure the safety, security and reliability of the nuclear stockpile. In support of its mission,
Livermore maintained Security Category I/II quantities of special nuclear material (SNM) that
required the highest level of security.

In October 2006, Public Law 109-364 required, among other things, the Department to develop a
plan to transform the nuclear weapons complex and to consolidate SNM to the maximum extent
practicable throughout the nuclear weapons complex, with the ultimate goal of eliminating
Security Category I/II SNM from the national security laboratories by no later than March 1,
2012. NNSA issued a Record of Decision in December 2008 that called for the removal of
Security Category I/II SNM from Livermore by the end of Fiscal Year 2012. NNSA's plan was
to eliminate SNM storage from Livermore's Plutonium Facility which is located in an area
known as the "Superblock," one of the two defense plutonium research and development
facilities in the United States.

In January 2012, the Office of Inspector General received allegations that Livermore had: (1)
failed to follow the Department's Record of Decision requirements for removing SNM and as
such had violated Public Law 109-364; (2) attempted to maintain SNM beyond 2012 by
establishing unique testing capabilities that were used to perform physical work using SNM on
the W78 Life Extension Program (LEP) that required only a "paper study;" (3) misappropriated
Government funds to reestablish test capabilities following a flood in 2006; and, (4) incurred
excessive security costs for SNM. We initiated a special inquiry to review the allegations.

RESULTS OF INQUIRY

Our inquiry did not substantiate the specific allegations outlined in the complaint. Specifically,
we found no evidence that Livermore had not followed the Department's Record of Decision
for removing Security Category I/II SNM as required by Public Law 109-364. In addition, we
found no support for allegations that Livermore developed unique environmental testing
capabilities that were used to perform physical work on the W78 LEP when only a paper study
was required, misappropriated Government funds relating to SNM activities, or had incurred
excessive security costs.

                                       Record of Decision

Livermore's de-inventory plan, which was approved by the NNSA Administrator, committed to
removing Security Category I/II SNM by September 30, 2012 as required by the Record of
Decision. NNSA's Record of Decision stated that NNSA planned to phase out Security
Category I/II operations at Livermore and would not maintain Security Category I/II SNM by
the end of 2012. Although Public Law 109-364 established an "ultimate goal" of SNM removal
by March 1, 2012, an NNSA official told us that it was not an absolute date for completion.
Accordingly, they set a more realistic date of September 30, 2012 that allowed for flexibility in
completing the de-inventory to the maximum extent practicable.

Livermore officials told us they were confident about achieving the de-inventory goal by
September 30, 2012. According to Livermore's status updates, as of May 2012, Livermore had
processed approximately 99 percent of the Security Category I/II SNM for off-site shipments, of
which approximately 95 percent of the Security Category I/II SNM had been removed from the
site. Our examination of status and progress reports revealed that Livermore was on target to
complete de-inventory of SNM by the end of FY 2012. Furthermore, according to a Livermore
Site Office official, quantities of SNM were validated against the status and progress reports,
therefore we did not independently verify the quantities of SNM that were processed and
shipped off-site.

                             W78 Testing Capabilities and Studies

We did not find any evidence to support the allegation that Livermore established unique
environmental testing capabilities for the W78 LEP and used this capability to perform physical
work on the LEP when only a paper study was required. In February 2011, NNSA approved the
reestablishment of an environmental testing capability that had previously existed at Livermore
but was no longer fully functioning because the programmatic need to exercise this capability
ended in 2005. According to an NNSA official, Livermore possessed a vibration machine that
was part of its previous testing capability but needed an acceleration testing machine to meet
current environmental testing needs. Livermore built the acceleration testing machine in 2011,
using off-the-shelf parts. According to an NNSA official, Livermore's environmental testing
capability supports various programmatic missions, including the W78 LEP. Further, according
to a Livermore Site Office official, Livermore will continue to utilize the equipment to conduct
environmental testing on nonnuclear components after SNM is removed from the site.

NNSA's approval of the reestablishment of the environmental testing capability allowed
Livermore to perform physical work using SNM for the W78 LEP studies. However, an NNSA
official told us that the first phase of the W78 LEP study was not strictly a "paper study" and
required environmental testing using SNM.




                                                2
                                        Government Funds

We found no evidence that Livermore misappropriated Government funds to facilitate the
reestablishment of the environmental test capability and to refurbish a Superblock building
following a 2006 flood. As previously discussed, Livermore's vibration machine was in an
inoperable state since 2005 because there was no programmatic need to conduct tests using this
piece of equipment. Following an extended period of non-operation, NNSA authorized
reactivation of the vibration machine in February 2011 for the study of W78 LEP and other
programmatic activities. We determined that maintenance to the vibration machine following a
flood in October 2006 was unrelated to reactivation in 2011. In addition, we found that the
building was not refurbished after the flood because recovery efforts involved minimal activities
such as mopping the floor. Thus, we determined that there were no misappropriated
Government funds.

                                          Security Costs

Finally, we did not substantiate the allegation that Livermore incurred excessive security costs
by maintaining security levels necessary to protect Security Category I/II SNM. NNSA's
Record of Decision stated that limiting Livermore operations to Security Category III/IV SNM
would achieve security savings of approximately $30 million per year. According to NNSA
officials, in order to maintain needed levels of security, Livermore was authorized to offer
retention bonuses and to provide a 12-month transition phase for security personnel to shift to
other jobs after de-inventory. Livermore estimated that the retention bonuses paid out to eligible
employees from FY 2010 through FY 2012 would be approximately $15.2 million. NNSA
officials told us that to ensure that the proper security personnel were in place until the Security
Category I/II SNM was removed, Livermore paid retention bonuses to security personnel who
elected to stay until September 30, 2012. The bonuses were approved by the Livermore Site
Office and stipulated in a Collective Bargaining Agreement (CBA) between LLNS and the
Security Police Officers Association. The current CBA states that each eligible security
personnel shall receive a total lump sum amount of $50,000 over a period of three fiscal years.
According to a Livermore official, the retention bonuses helped to maintain the number of
security personnel at the levels required for Security Category I/II protection throughout the de-
inventory, as well as maintain the morale amongst the impacted security personnel.

In addition to the retention bonuses, NNSA's Office of Defense Nuclear Security verbally
authorized a 12-month transition phase, ending on September 30, 2013, to assist impacted
security personnel to shift to other jobs post de-inventory. In instances where a change in
workforce is necessary, such as the reduction of security personnel post de-inventory, Livermore
is required under its contract to develop a Workforce Restructuring Plan that provides detailed
information regarding the proposed workforce restructuring activities. Livermore is currently
drafting its Workforce Restructuring Plan, which will be implemented post de-inventory.

Since the allegations were not substantiated, we are not making any recommendations and a
formal response is not required. We appreciated the cooperation of your staff during the review.

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff
                                              3
                                                                    IG Report No. OAS-L-12-11



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the inspection would have been helpful to the reader in understanding
        this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
